)
f

No.
In THE

Supreme Court of tlje Umteb States
Jeremiah (“Jenna”) Rodgers,
Petitioner,
v.

State of Florida,
Respondent.
On Petition for a Writ of Certiorari to the
Florida Supreme Court
PETITION FOR A WRIT OF CERTIORARI
THIS IS A CAPITAL CASE

LINDA McDERMOTT
Counsel of Record
KATHERINE A. BLAIR
RAYMOND DENECKE
Capital Habeas Unit
Office of the Federal Pub He Defender
Northern District of Florida
227 North Bronough St., Suite 4200
Tallahassee, Florida 32301
(850) 942-8818
linda_mcdermott@fd.org
katherine_blair@fd.org
raymond_denecke@fd.org

i

J

CAPITAL CASE
QUESTIONS PRESENTED

1.

Whether the newly discovered evidence of a criminal defendant’s

medical condition, including gender dysphoria, may implicate the voluntariness of
prior waivers made by the defendant?
2.

Whether a defendant is required, in order to avoid application of a

procedural bar, to advance a diagnosis or medical condition that has yet to be fully
accepted by the medical community, and which has not been conclusively
determined to apply to the defendant?
3.

Whether a waiver of proceedings by a defendant constitutes an

absolute bar to any future claims pertaining to the validity of the waiver?
4.

Whether the Florida Supreme Court’s disenfranchisement of a

defendant s attempts to vindicate her constitutional rights deprives her of due
process, equal protection and fair access to the courts?

l

i

PARTIES TO THE PROCEEDINGS
Petitioner, Jeremiah (“Jenna”)1 Rodgers, a death-sentenced Florida prisoner,
was the appellant in the Florida Supreme Court.
Respondent, the State of Florida, was the appellee in the Florida Supreme
Court.

1

Petitioner has gender dysphoria, a medical condition characterized by one’s gender
identity not aligning with the sex assigned at birth. This petition refers to Petitioner
by her preferred female name, and with gender-appropriate pronouns, consistent
with prevailing medical standards.
n

NOTICE OF RELATED CASES2
Per Supreme Court Rule 14.1 (b)(iii), the following cases relate to this petition:
Underlying Trial:
Circuit Court of Santa Rosa County, Florida
State of Florida v. Jeremiah Martel Rodgers, Case No. 98-CF-274
Judgment Entered: November 21, 2000
Direct Appeal:
Florida Supreme Court (Case No. SC01-1HH85)
Rodgers v. State, 934 So. 2d 1207 (Fla. 2006) (reversed death sentence)
Judgment Entered: June 29, 2006
Petition for Writ of Certiorari Denied:
Supreme Court of the United States (Case No. 06-6858)
Rodgers v. Florida, 549 U.S. 1080 (2006)
Judgment Entered: December 4, 2006
Resentencing ProceedingCircuit Court of Santa Rosa County, FL
State of Florida v. Jeremiah Martel Rodgers, Case No. 98-CF-274
Judgment Entered: June 20, 2007
Second Direct Appeal:
Florida Supreme Court (Case No. SC07-1652)
Rodgers u. State, 3 So. 3d 1127 (Fla. 2009) (affirming)
Judgment Entered: February 5, 2009
Initial Postconviction ProceedingsCircuit Court of Santa Rosa County, FL
State of Florida v. Jeremiah Martel Rodgers, Case No. 98-CF-274
Judgment Entered: April 18, 2011 (dismissing proceedings)
Florida Supreme Court (Case No. SCI 1-1401)
Rodgers v. State, 104 So.3d 1087 (Fla. 2012) (Table) (affirming)
Judgment Entered: October 17, 2012
Second Postconviction Proceedings (Hurst):
Circuit Court of Santa Rosa County, FL
State of Florida v. Jeremiah Martel Rodgers, Case No. 98-CF-274
2 Petitioner will subsequently file a petition for writ of certiorari arising from her non­
capital case (No. 1D19-1965) (Fla. 1st DCA 2019), the conviction of which was used
against her as an aggravator in this case. This is discussed infra at 13-14.
in

Judgment Entered: May 2, 2017 (denying motion)
Florida Supreme Court (Case No. SC 17-1050)
Rodgers v. State, 242 So.3d 276 (Fla. 2018) (affirming)
Judgment Entered: February 8, 2018
Rehearing Denied: April 24, 2018 (2018 WL 1920599)
Petition for Writ of Certiorari Denied:
Supreme Court of the United States (Case No. 18-113)
Rodgers u. Florida, 139 S. Ct. 592 (2018) (Mem)
Judgment Entered: December 3, 2018
Third Postconviction Proceedings (Newly Discovered Evidence):
Circuit Court of Santa Rosa County, FL
State of Florida v. Jeremiah Martel Rodgers, Case No. 98-CF-274
Judgment Entered: January 18, 2019 (denying motion)
Florida Supreme Court (Case No. SC 19-241)
Rodgers v. State, 288 So.3d 1038 (Fla. 2019) (affirming)
Judgment Entered: November 21, 2019
Rehearing Denied: February 11, 2020 (2020 WL 639404)

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDINGS

n

NOTICE OF RELATED CASES

m

TABLE OF CONTENTS

v

TABLE OF AUTHORITIES

VTL

DECISION BELOW

1

JURISDICTION.

1

CONSTITUIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

I.

Introduction

2

II.

Procedural History.

5

III.

Additional Relevant Facts

10

A. Trial

11

B. Retrial in Non-Capital Case

12

C. Second Penalty Phase

14

D. Initial Postconviction Waiver.

15

E. Hurst Postconviction Proceedings

17

F. Newly Discovered Evidence

19

REASONS FOR GRANTING THE WRIT

25

I.

This Case Presents an Important Issue of Federal Law, and the State
Court’s Grounds for Denying Ms. Rodgers Access to the Courts Were
Not Adequate to Support the Judgment of Independent of Federal
Law
25
v

A. The State Time Bar Was Incorrect

25

1. Gender dysphoria was not a recognized diagnosis at the time of
Ms. Rodgers guilty plea, sentencing and postconviction waivers ... 26
2. The experts assisting Ms. Rodgers could not have rendered their
conclusions any earlier that they did
28
B. The State Court’s Knowledge of Ms. Rodgers’ Co-Morbid Mental
Health Conditions at the Time of Her Guilty Plea, Jury Waiver, and
Postconviction Waiver Does Not Invalidate Her Constitutional
Challenges Based on Newly Discovered Evidence of Her Gender
Dysphoria......................................................... ........................................... 32
II.

This Case Requires Clarification of This Court’s Recent Precedent in
Garza v. Idaho, 139 S.Ct. 738 (2019)........................................................ 36

CONCLUSION.

40

CERTIFICATE OF SERVICE

41

vi

TABLE OF AUTHORITIES
Brockman v. State,
852 So. 2d 330 (Fla. 2d DCA 2003)
Campusano v. United States,
442 F.3d 770 (2d Cir. 2006)............
Durocher u. Singletary,
623 So. 2d 482 (Fla. 1993)..............
Garza v. Idaho,
139 S.Ct. 738 (2019).......................
Gaskin v. State,
737 So. 2d 509 (Fla. 1999)..............
Halbert v. Michigan,
545 U.S. 605 (2005).........................
Hurst u. Florida,
136 S.Ct. 616 (2016)........................
Hurst v. State,
202 So. 3d 40 (Fla. 2016).................
James u. State,
974 So. 2d 365 (Fla. 2008)...............
In re. Commitment of Reilly,
970 So. 2d453 (Fla. 2d DCA 2007)..
LeWinter v. Guardianship,
606 So. 2d 387 (Fla. 3d DCA 1992).
Lockett v. Ohio,
438 U.S. 586 (1978)..........................
Michigan u. Long,
463 U.S. 1032 (1983).......................
Rodgers v. State,
869 So. 2d 604 (Fla. 1st DCA 2004).
Rodgers v. State,
934 So. 2d 1207 (Fla. 2006)..............
Rodgers v. State,
3 So. 3d 1127 (Fla. 2009)..................
Rodgers v. State,

7
38
7
25, 36, 37, 40
36
37
1, 2, 7, 8
1, 2,8
38
7
7
36
25
12
5, 6, 12, 14
6, 13, 14, 15

104 So. 3d 1087 (Fla. 2012)...........

7, 27

Rodgers v. State,

242 So. 3d 276 (Fla. 2018).............

8, 9

Rodgers u. State,
288 So. 3d 1038 (Fla. 2019)..............
Russ v. State,
107 So. 3d 406 (Fla. 2012)................
Silvia v. State,

1, 10, 25, 36
39

123 So. 3d 1148 (Fla. 2013)...........

38, 39
Vll

State v. Poole,
2020 WL 370302 (Fla.)....
State v. Silvia,
235 So. 3d 349 (Fla. 2018)
Trease v. State,
41 So. 3d 119 (Fla. 2010)..

2

39
39

Vlll

DECISION BELOW
The Florida Supreme Court’s decision is available at 288 So.3d 1038 (Fla. 2019),
reh’g denied 2020 WL 639404 (Fla., Feb. 11, 2020), and is reprinted at Attachment A.3
JURISDICTION
The judgment of the Florida Supreme Court was entered on November 21, 2019.
Rehearing was denied on February 11, 2020. This Court has jurisdiction under 28 U.S.C.
§ 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The Eighth Amendment provides, in relevant part:
Excessive bail shall not be required...nor cruel and unusual
punishments inflicted.
The Fourteenth Amendment provides, in relevant part:
No State shall . . . deprive any person of life, liberty, or
property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

3 Citations to non-appendix material from the record below are as follows: R. - record
from original trial; T - transcript of original trial; PPR - record from second penalty
phase; PPT - transcript from second penalty phase; PCR - record from waived
postconviction proceeding; PSCR — supplemental record from waived postconviction
proceeding; HPCR - record from postconviction proceeding initiated after Hurst v.
Florida, 136 S. Ct. 616 (2016), and Hurst u. State, 202 So. 3d 40 (Fla. 2016); SPCR record from successive postconviction motion giving rise to the instant petition.
1

STATEMENT OF THE CASE
I.

Introduction
Jeremiah Rodgers did not want to live. Jenna Rodgers does. Ms. Rodgers’ gender

dysphoria is undisputed, and although her death sentence would have been vacated
under Hurst u. Florida4 and Hurst v. State5 6 were it not for waivers she made prior to
Hurst, no court has adequately and substantively considered the effect of Ms. Rodgers’
gender dysphoria on the competency and voluntariness of those waivers.
Throughout Ms. Rodgers’ life, she has felt “compelled to wear a mask to hide the
fact that everything below the surface is female.” SPCR 113. Yet, until recently, she has
not had a context for understanding the implications of those feelings, and believed
death was the only avenue to relief from her distress. This is through no fault of Ms.
Rodgers—rather, it is because gender dysphoria has not been a well-recognized condition
in our society and the diagnosis was not even available to Ms. Rodgers prior to her
waivers.
Gender dysphoria was not clinically recognized until 2013, when it first appeared

4 136 S. Ct. 316 (2016).
5 202 So. 3d 40 (Fla. 2016).
6 The Florida Supreme Court’s receding opinion in State v. Poole, 45 Fla. L. Weekly
S41, 2020 WL 370302 (Fla. Jan. 23, 2020), clarified, 45 Fla. L. Weekly S121 (Fla. Apr.
2, 2020), does not change this. The Poole decision has not been presented to this Court
for certiorari review, and is not yet settled law. Additionally, even if Poole becomes
settled law, it does not mean that Ms. Rodgers’ death sentence would have been
reinstated. Several prisoners whose death sentences were vacated by the Hurst
decisions had already been resentenced prior to Poole, and the Florida Supreme Court
has not yet decided whether Poole has any impact on prisoners with final judgment
vacating their death sentences via Hurst who have yet to be resentenced. It is simply
not possible to predict what posture Ms. Rodgers’ case would be in had she received
Hurst relief when she first sought it in 2017.
2

in the fifth edition of the Diagnostic and Statistical Manual of Mental Disorders (“DSMV”). SPCR 133, 155. This new diagnosis as articulated in the DSM-V recognized that
gender dysphoria is not interchangeable with being transgender. Before the new
diagnostic criteria, the condition of being transgender itself was pathologized and seen
as a mental disorder. SPCR 133. However, in recent years, variations from gender norms
have become more widely socially recognized. SPCR 163-64. Being transgender is simply
one of several variations from traditional binary gender norms. It is not a disorder. SPCR
133. Gender dysphoria, however, is a disorder that can arise as a result of being
transgender. It occurs when a transgender individual experiences distress and
dysfunction from being in the wrong physical body. SPCR 133. This shift in diagnostic
criteria is of utmost importance, as it recognizes that the treatment for this distress and
dysfunction is not simply to compel one with gender dysphoria to accept the gender
identity that traditionally aligns with their biological body. Thus, prior to a 2016
evaluation of Ms. Rodgers—the first time she was evaluated after gender dysphoria
became a recognized diagnosis, she had no framework through which to understand her
condition, or the impact it had on other aspects of her life, including her capital litigation.
In addition to this clinical shift, several factors arising from Ms. Rodgers’
individual background posed a barrier to proper evaluation and diagnosis. Before her
incarceration in the instant case, Ms. Rodgers was subjected to lifelong physical, sexual,
and mental abuse.7 She was raised in an environment that adhered to strict gender

7 See, e.g., SPCR 92 (chronicling “harsh beatings” by Ms. Rodgers’ “mentally disturbed
and erratic mother” and “violent, abusive and racist father”); 92-93 (Ms. Rodgers was
forced to have sex with her mother, repeatedly raped by her mother’s “johns”, and
3

norms and espoused prejudice against minorities—particularly as it pertained to sexual
identity and orientation. SPCR 92. This environment, as a result of systematic abuse,
terror, isolation, discrimination, and lack of education, taught Ms. Rodgers that if she
was honest about what she was experiencing,
[o]thers would not accept those thoughts as anything other than perverse,
that [she] would be ostracized and judged, and that Pier] life would be
further threatened. So [she] kept it inside. The emotional pain and shame
of living with this inner turmoil, however, fueled [her] self-destructiveness,
depression, suicidality and self-mutilation, sense of isolation, fear of harm,
and anger.
SPCR 94.8 As such, “Ms. Rodgers has had to suppress her female identity throughout
most of her life[,]” SPCR 173, and has not, until recently, had a safe and educated space
to fully express and process her feelings and gain clarity regarding why she has felt such
dissonance with her body, why she felt so unequipped to proceed throughout her life as
a biological male, or the significant interplay of this condition—gender dysphoria—-with
other aspects of her life such as her preexisting psychiatric conditions, and the trauma
stemming from her lifelong history of victimization and exposure to bigotry. SPCR 93,
134, 164.
This interplay of the extreme distress Ms. Rodgers experienced from being
transgender, coupled with her pre-existing vulnerabilities, manifested in self-harm,
depression, self-loathing, suicidality—and ultimately in waivers of constitutional rights.

brutally raped as a 16 year-old in an adult prison); 92 (Ms. Rodgers was publicly
punished via “emotional debasement, and by frank humiliation,” such as being made
to wear diapers and wet underwear on her head).
8 See also SPCR 93 (discussing the “inherent dangers of expressing these thoughts
openly in any environment, including correctional facilities”); SPCR 112.
4

SPCR 96,155,163,173. At eveiy prior stage of Ms. Rodgers’ capital litigation, the courts,
attorneys, and prior mental health evaluators were unaware that her self-sabotaging
behavior—including the decisions to end her legal proceedings—stemmed from the
complex effect of her undiscovered gender dysphoria. Her gender dysphoria, when
viewed in conjunction with her history as a whole, calls into question the validity of each
of her waivers in this case.
As Ms. Rodgers and her defense team have become aware of these factors and
their potential impact on her legal proceedings, Ms. Rodgers has diligently attempted to
raise them in court. However, she has been blocked at each turn. Now, as expressed in
the opinion below, the Florida Supreme Court has not only improperly barred her rlaim
from review, but seeks to bar her from any further filings in the state courts without
express permission of the state circuit court. This collective disenfranchisement of Ms.
Rodgers’ attempts to vindicate her constitutional rights deprives her of due process,
equal protection, fair access to the courts, and undermines the reliability of her death
sentence.
II.

Procedural History9
In 1998, Petitioner pleaded guilty to murder. Rodgers v. State, 934 So. 2d 1207,

1210 (Fla. 2006). An advisory jury recommended death by a vote of 9 to 3, after which
the trial court made findings of fact and imposed a death sentence. Id. The Florida
Supreme Court affirmed the conviction but remanded for a new penalty phase after

9 To best reflect the fact that Ms. Rodgers’ gender dysphoria was undiscovered
throughout the entirety of her pre-Hurst litigation, the remainder of the Statement
of the Case will refer to Ms. Rodgers as Petitioner.
5

concluding that the trial court had improperly excluded mitigating evidence. Id. at 1220.
At resentencing, Petitioner waived the presentation of mitigation witnesses including
mental health experts, stating “my intention is not to put up a defense at all...death is
my only escape.” PPT 10, 12. Upon learning after juiy selection had begun that it was
possible to waive a sentencing jury,10 Petitioner waived a juiy, explaining to the judge,
I can count on a death sentence with you I feel.. .If I could sign a paper right now, and
get a death sentence, and go back to death row, I would do it.” Rodgers v. State, 3 So. 3d
1127, 1130 (Fla. 2009); PPT 75, 81. The circuit court accepted the jury waiver without
conducting any further evaluation of Petitioner’s present competency as it pertained to
the jury waiver, n Rodgers u. State, 3 So. 3d at 1131; PPT 81-82. The circuit court
imposed a death sentence that was subsequently affirmed by the Florida Supreme
Court. Id. at 1135.
In 2009, in the early stages of state postconviction review, Petitioner wrote to the
circuit court asking to end further appeals and expedite the execution process. PSCR 8.

10 Prior to the commencement of Petitioner’s resentencing proceedings on May 7,
2007—the date of the waiver—Petitioner “didn’t know that I could waive this—the
right to a jury[.]” PPT 77.
11 Upon learning of Petitioner’s request to waive a jury, resentencing counsel neither
conducted any inquiry into Petitioner’s competency nor requested such an inquiry
from the court. PPT 75-82. The circuit court, relying solely on Petitioner’s cursory
assurances that counsel had not coerced Petitioner into this waiver and that
Petitioner understood what a jury waiver entailed, found that Petitioner understood
“the consequences and the seriousness of waiving his right to a jury recommendation
on the penalty phase. Im satisfied...that the decision was freely, voluntarily, and
intelligently made after he’s had the benefit and advice of counsel and considered the
ramifications.” PPT 82. Despite Petitioner’s history of mental illness and suicidality,
and despite Petitioner’s admission to wishing for an expedited death, PPT 75, 81, the
court never inquired as to Petitioner’s competency or state of mind.
6

The court accepted the waiver after an April 6, 2011, hearing pursuant to Durocher v.
Singletary, 623 So. 2d 482 (Fla. 1993), and discharged appointed counsel. PCR 1-3. In
finding Petitioner competent, the circuit court relied on evaluations prepared in
February 2010 by two mental health experts, Drs. Prichard and McLaren,12 PCR 11-12;
PCSR 1-7, 99-107, and the court’s impression that Petitioner was “very articulate” and
“intelligent.” PCR 17. Discharged counsel unsuccessfully appealed. Rodgers v. State, 104
So. 3d 1087 (Fla. 2012).
In 2016, after having been appointed counsel for the purpose of vindicating newly
recognized constitutional rights under this Court’s decision in Hurst v. Florida, 136 S.
Ct. 616 (2016), Petitioner was evaluated by a medical professional, Dr. Julie Kessel, who
preliminarily hypothesized that Petitioner suffered from gender dysphoria. Although
Petitioner had been evaluated by medical and mental health professionals throughout
her life and at multiple stages of this capital litigation, no one had previously rendered
a gender dysphoria diagnosis, nor suggested such a hypothesis to Petitioner.

12 Under Florida law, these competency evaluations, conducted over one year prior to
the Durocher hearing, were stale and not sufficient to gauge Petitioner’s present
competency. See, e.g., Brockman v. State, 852 So. 2d 330, 333-34 (Fla. 2d DCA 2003)
(holding that assessments from four and eleven months prior to trial “were simply
too old to be relevant to a determination of [the defendant’s] competency”); In re.
Commitment of Reilly, 970 So. 2d 453, 454 (Fla. 2d DCA 2007) (explaining that a sixmonth-old report could not speak to the defendant’s present competency and that the
“stale report” did not provide substantial evidence to support the trial court’s finding);
LeWinter u. Guardianship of LeWinter, 606 So. 2d 387, 388 (Fla. 3d DCA 1992)
(discussing how a report filed six weeks prior to competency proceeding did not
accurately reflect the subject’s present mental state and ability to care for himself).
Nevertheless, at no point during the Durocher hearing did Petitioner’s counsel
request—or the court order—a renewed competency evaluation. Instead, the court
simply acquiesced to Petitioner’s desire not to be evaluated. PCR 16.
7

Although Dr. Kessel had rendered only a preliminary hypothesis regarding
Petitioner’s gender dysphoria, and although further evaluation of Petitioner by a more
specialized medical professional was necessary in order to reach concrete conclusions,
Petitioner—in order to comply with procedural time limits—filed a motion under Fla. R.
Crim. P. 3.851 seeking relief under Hurst v. Florida, 136 S. Ct. 616 (2016), and Hurst v.
State, 202 So. 3d 40 (Fla. 2016). HPCR 28. The motion addressed Petitioner’s prior
waivers, and challenged the competency and voluntariness of those waivers based on the
preliminary evidence of gender dysphoria. The circuit court summarily denied relief
ruling that Petitioner’s prior waivers barred Hurst relief. HPCR 109-10. The court
refused to re-examine the validity of Petitioner’s waivers on the cursoiy grounds that
the claim was tune-barred for having been filed more than one year after Petitioner’s
death sentence became final and that the claim did not “allege that [it was] predicated
on facts that were unknown to Defendant or his counsel and could not have been
ascertained by the exercise of due diligence.” The Florida Supreme Court affirmed on
timeliness grounds, finding that “the time for Rodgers to contest the prior competency
determination has passed” and “Rodgers has not proffered any newly discovered
evidence that would warrant revisiting the validity of this waiver.” Rodgers v. State, 242
So. 3d 276, 277 (Fla. 2018), cert denied, Rodgers v. Florida, 139 S. Ct. 592 (2018).
Concurring in the result, Justice Pariente voiced concerns about the effect of untreated
gender dysphoria when viewed in tandem with Petitioner’s history of mental health
issues, but concurred in the denial of relief because “the recent specific diagnosis of
gender dysphoria, not raised as a newly discovered evidence claim, does not invalidate

8

Rodgers’ waivers.” Rodgers, 242 So. 3d at 280.
Throughout the pendency of Petitioner’s Hurst litigation, and as necessaiy to
support a conclusive diagnosis, Petitioner was further evaluated by medical
professionals with specialized expertise in gender dysphoria. Simultaneously, Petitioner
grappled with her condition, coming to terms with the new light it shed on numerous
aspects of her life history, as well as the consequences it had rendered on her prior
litigation and the potential ramifications for her life within the prison system if
Petitioner accepted this diagnosis. Consistent with scientific understanding regarding
gender dysphoria, this process was gradual. See generally, Ashley Austin, ‘There I Am”:
A Grounded Theory Study of Young Adults Navigating a Transgender or Gender
Nonconforming Identity Within a Contest of Oppression and Invisibility, 75 Sex Roles
215 (2016) (detailing “slow and gradual” process of understanding and accepting one’s
transgender identity); Georgina Mullen & Geraldine Moane, A Qualitative Exploration
of Transgender Identity Affirmation at the Personal, Interpersonal, and Sociocultural
Levels, 14:3 International Journal of Transgenderism 140 (2013) (same); see also, J.E.
Sumerau & Lain A.B. Mathers, America Through Transgender Eyes 37 (2019).
Eventually, in 2018, Petitioner was able to accept her transgender identity and
cooperate with her defense team by opening up and discussing her condition’s impact on
her life, including critical decisions she has made in her legal proceedings. As a result of
the cumulative corroborating information discovered between Dr. Kessel’s initial
hypothesis and the final conclusions memorialized at the end of 2018, Petitioner’s
evaluating medical professionals were able to render a definitive diagnosis of gender

9

dysphoria.
One day after this Court declined to conduct certiorari review of Petitioner’s Hurst
challenge, Petitioner filed a successive Rule 3.851 motion, raising as newly discovered
evidence Petitioner’s gender dysphoria and its impact on her waivers and competency.
The circuit court again summarily denied without a hearing and stated that the
postconviction waiver stands. SPCR 412-13. Petitioner appealed to the Florida Supreme
Court, which affirmed the circuit court’s denial.13 Rodgers v. State, 288 So.3d 1038 (Fla.
2019). Further, the Florida Supreme Court instructed that Petitioner be barred from
raising further claims without first seeking leave from the state circuit court. Id. at 1040.
III.

Additional Relevant Facts
From its infancy, Ms. Rodgers’ capital litigation has been marred with concerns

regarding her mental health and self-harming behavior. Yet, through no fault of Ms.
Rodgers or her defense team, no prior stages of litigation have been conducted with the
benefit of a full picture of her condition. As a result, all prior concerns regarding Ms.
Rodgers’ competency and self-destructiveness fell short of establishing the invalidity of
Ms. Rodgers’ waivers.

A. Trial

13 The State moved to dismiss Petitioner’s appeal, claiming that this claim was the
same as the Hurst challenge filed in 2017, and that Petitioner should be disallowed
from filing any postconviction claims until an execution was signed. Mot. To Dismiss,
Rodgers v. State, No. SC19-241 (Fla. Feb. 27, 2019). The Florida Supreme Court
denied the motion to dismiss. Order, Rodgers v. State, No. SC19-241 (Fla. Mar 21
2019).
10

Prior to Petitioner’s capital trial, her14 attorneys worried she was not competent
to proceed. R 240-50, 625. Upon motion by the defense, the circuit court ordered that
Petitioner’s competency be evaluated as it pertained to the capital offense and a noncapital trial proceeding in the same timeframe. R 240, 254,633. Petitioner was evaluated
by Dr. Lawrence Gilgun in 1999, who considered Petitioner’s psychiatric hospitalizations
prior to 1998 and “a long documented histoiy” of self-harm and suicide attempts,
including an attempt to shoot herself, an incident in which Petitioner slit her throat, an
incident in which Petitioner’s wounds required over 100 stitches, and a near-death
attempt while incarcerated where Petitioner was found in a pool of her own blood and
“Life-Flighted” for inpatient hospital treatment due to severe blood loss. R 2060-61
2071-72, SPCR 130, 194, 204. Dr. Gilgun opined that Petitioner “continues to make
serious suicidal gestures and...is genuinely suicidal” and not competent to stand trial.
In 2000, Dr. Gilgun conducted another evaluation and noted that while Petitioner’s
behavior was still unpredictable and self-defeating and she continued to self-mutilate
and show poor judgment, she was no longer actively suicidal. R 2058-61. Because
Petitioner was not currently suicidal, Dr. Gilgun deemed her competent to proceed, with
the caveat that Petitioner continued to exhibit instability, her competency was
conditioned upon proper and consistent medication, and “it would not at all surprise me

14 It bears repeating that although this petition utilizes feminine pronouns m
accordance with prevailing medical standards, at each stage of Petitioner’s litigation
prior to the Hurst decision, Petitioner’s counsel was unaware of Petitioner’s gender
dysphoria, utilized male pronouns, and believed Petitioner’s preferred gender to be
male. Even after the preliminary hypothesis of gender dysphoria, Petitioner needed
time to grapple with the ramifications of her condition, and was not comfortable using
feminine pronouns in publicly available pleadings until 2018.
11

if this situation changes.” R 2075-85. Throughout both evaluations, Dr. Gilgun remained
unaware of Petitioner’s gender dysphoria and did not take it into account while
rendering his conclusions regarding Petitioner’s competency.
As Petitioner’s trial drew closer, the State offered a plea bargain: in exchange for
Petitioner pleading guilty to first-degree murder and other offenses, the State would not
argue during the penalty phase that Petitioner was the actual shooter. Rodgers u. State,
934 So. 2d 1207 (Fla. 2006). Petitioner was represented by two attorneys at the time, one
male and one female. Her attorneys presented conflicting advice regarding whether
Petitioner should accept the offer and plead guilty, or refuse the offer and proceed to jury
trial. R 855; SPCR 175, 188. Petitioner’s female lawyer advised her to plead, whereas
Petitioner’s male lawyer advised her to reject the plea offer. Petitioner accepted her
female attorney’s advice and entered the plea. R 914. Neither of Petitioner’s lawyers
knew of Petitioner’s gender dysphoria, the way it exacerbated Petitioner’s vulnerable
mental state, or the impact it had on which attorney’s advice Petitioner was likely to
follow upon receiving conflicting advice regarding the plea offer.
B. Retrial in Non-Capital Case
In 1998, Petitioner was convicted of attempted murder. SPCR 227. Petitioner
appealed, and in 2004, the Florida state court set aside Petitioner’s conviction. Rodgers
v. State, 869 So. 2d 604 (Fla. 1st DCA 2004). Prior to meeting her attorney for the noncapital retrial, Petitioner wrote a letter to the court stating she wished to plead guilty.
SPCR 255. Three days later, Petitioner attempted suicide by cutting a “large gapQing
wound” into her arm near an artery, resulting in significant blood loss and requiring

12

emergency transport from jail to hospital via ambulance. SPCR 280, 311. The incident
was considered by experts to be “a genuine attempt [by Petitioner] to kill herself’). SPCR
171. Petitioner was later found with “several pieces of a razor blade [,]” further
emphasizing the extent of Petitioner’s suicidality. SPCR 365. Less than twenty-four
hours later, Petitioner pleaded guilty to attempted murder and other charges, knowing
the conviction would constitute an aggravating factor used to obtain a death sentence in
her capital case. SPCR 229, 237; Rodgers u. State, 3 So. 3d 1127, 1131 (Fla. 2009).
Petitioner’s counsel did not inform the circuit court of Petitioner’s attempt to kill herself
the night before, or of her history of psychiatric illness and trauma, and no inquiry was
conducted regarding Petitioner’s competency. SPCR 227-44.

'

After Petitioner’s plea, she displayed further erratic behavior suggestive of
suicidality. SPCR 280, 292, 306. A consulting psychologist expressed “serious doubts” as
to Petitioner’s competency at the time of her plea, as a result of severe mental illness
and “a suicidal wish to die.” SPCR 280. Concerned, Petitioner’s former counsel, Mark
Olive, filed a motion to withdraw the plea. SPCR 262-75. The circuit court struck the
motion but noted that, had it been filed pro se or by then-appointed counsel, Petitioner
would have been entitled to a hearing. SPCR 300-01. Mr. Olive appealed the decision
pro bono, but the Florida state court affirmed. SPCR 303; Rodgers v. State, 903 So. 2d
941 (Fla. 1st DCA 2005).
All of these actions occurred without knowledge of Petitioner’s gender dysphoria,
which meant that the deciding courts were unaware that there was an undiscovered
factor “greatly affect[ing Petitioner]^ mental state, her emotional development, and

13

decision-making” at the time of her plea to offenses that were used as aggravators at her
capital resentencing. SPCR 145-46; 117-18.
C. Second Penalty Phase
The Florida Supreme Court vacated Petitioner’s death sentence due to the trial
court’s improper exclusion of mitigation evidence. Rodgers v. State, 934 So. 2d 1207,1220
(Fla. 2006). Immediately before jury selection was to begin for the 2007 penalty phase,
Petitioner informed the circuit court that—against counsel’s advice—she did not want
to present any mitigation evidence apart from her own testimony. PPR 47-49; see also
256-59 ( my intention is not to put up a defense at all”), PPT 10 (same). Immediately
after jury selection, on the same day Petitioner learned she could waive a jury, she
informed the court that she wished to do so. PPR 323-24, PPT 74-75; Rodgers v. State, 3
So. 3d 1127, 1130 (Fla. 2009). Petitioner’s reasoning for these choices was “death is my
only escape[,]” PPT 12, and “I can count on a death sentence with you I feel...If I could
sign a paper right now, and get a death sentence, and go back to death row, I would do
it.” PPT 75, 81.
No competency assessment was performed, nor had one been performed in the
past seven years. PPR 267, PPT 8-9, 11, 19. Yet, the trial court accepted Petitioner’s
mitigation and juiy waivers. PPR 331, PPT 81-82. Dr. Gilgun, who had evaluated
Petitioner prior to her capital plea, explained that accepting Petitioner’s waivers without
conducting further competency evaluations was a grave mistake:
Competency cannot be looked at as a constant or fixed state. A person can
be competent at one stage in their life and not at another. . . . [GJiven her
history and the [prior] doubts regarding her competency, further
evaluations should have been conducted, particularly. . . .when Ms.
14

Rodgers was under the significant stress of legal proceedings and was
making decisions that greatly affected her future.
SPCR 165,173 (“Competency is fluid, and decision-making competency must be assessed
at the moment. The competency determinations made around the time of Ms. Rodgers’s
original capital trial were not substitutes for evaluations that should have been
conducted at the time of each of her subsequent waivers.”).
After a truncated penalty phase with no mitigation witnesses or evidence other
than Petitioner’s testimony, the court imposed a death sentence. PPR 78, 339. Again,
neither the circuit court that accepted Petitioner’s waiver, nor the Florida Supreme
Court that affirmed its validity, Rodgers, 3 So. 3d at 1135, knew of Petitioner’s gender
dysphoria or its interplay with her pre-existing mental illnesses and other individual
vulnerabilities. Had these courts had the full picture, it would have raised dispositive
red flags regarding Petitioner’s willingness to waive her rights:
As a result of [Ms. Rodgers’] mental disorders, and especially the presence
of Gender Dysphoria, a lifelong condition, the absence of any competency
and/or mental health evaluation that considered the impact of Pier] Gender
Dysphoria on [her] emotional development, mental state, and decision
making at the time of [her] “waiver,” and given the new understanding of
and diagnostic criteria for Gender Dysphoria, there is substantial doubt as
to whether Pier] waiver of Pier] right to a juiy at [her] second penalty phase
was knowing and voluntary.
SPCR 96-97; see also SPCR 117-18 (characterizing Petitioner’s pleas and waivers as
“state assisted suicide”).
D. Initial Postconviction Waiver
In 2010, after appointing state postconviction counsel, the circuit court appointed
two experts to evaluate Petitioner’s competency. PCR 1; PCSR 33, 99.. Again, the

15

evaluating experts were unaware of Petitioner’s gender dysphoria, and thus unable to
formulate a fully educated opinion of Petitioner’s state of mind. ‘Their lack of awareness
. . . left the evaluators with limited information from which to render a full and
meaningful assessment of the true reasons for [Petitioner's decision to waive [her]
appeal rights then and into the future.” SPCR 96.
Petitioner’s erratic behavior continued. She wrote to the court, complaining about
her counsel and asking to end further appeals and “have the Governor sign my death
warrant [.]” PCSR 8. When the court appointed a different attorney on her behalf she
expressed a desire to pursue her appeals, only to soon change her mind again and ask to
waive her appeals and proceed toward execution. PCR 32.15 Petitioner confided in her
counsel that her motivation to drop her appeals was to seek death, which she believed
would allow her to escape from the feeling that she was imprisoned in the wrong body.
SPCR 102. Counsel did not bring this to the attention of Petitioner’s mental health
evaluators, or to the court, and Petitioner was herself unable to understand or
contextualize her feelings and motivations. Indeed, this sense of distress and
impairment resulting from a feeling of imprisonment in the wrong body would not be
recognized by the medical and mental health community—as gender dysphoria—for
several more years until the 2013 publication of the DSM-V. SPCR 133.
Thus, at the time the circuit court accepted Petitioner’s postconviction waiver and
discharged appointed counsel, PCR 2, and at the time the Florida Supreme Court

15 Although over a year passed between Petitioner’s 2010 evaluations and the
Durocher hearing at which Petitioner waived her postconviction rights, and despite
Petitioner’s erratic behavior, no closer-in-time competency evaluation took pi ace.
16

affirmed, those courts remained unaware that Petitioner had a medical condition that
was “present and active at the time when [she] chose to waive Pier] right to seek initial
postconviction review of [her] death sentence.” SPCR 92.
E. Hurst Postconviction Proceedings
In 2016, Dr. Julie Kessel, M.D.,16 conducted a clinical interview of Petitioner in
conjunction with new litigation to vindicate Petitioner’s rights after Hurst. HPCR 56.
After her initial meeting with Petitioner, Dr. Kessel reviewed extensive records
regarding Petitioner’s childhood, developmental years, and incarceration as a juvenile
and adult. In 2017, Dr. Kessel expressed a prehminaiy opinion that Petitioner may have
gender dysphoria in addition to posttraumatic stress disorder, major depressive
disorder, and a personality disorder not otherwise specified. HPCR 62. Because gender
dysphoria is an uncommon and easily misdiagnosed condition, and because Dr. Kessel
did not specialize in gender dysphoria, Petitioner’s counsel retained Dr. George Brown,
M.D., who had over thirty years of clinical practice and study regarding transgender
health issues (including in forensic and prison settings), and whose contemporary work
has particularly focused on gender dysphoria. SPCR 107-08. Dr. Brown wrote a report
in which he provisionally concurred with Dr. Kessel. HPCR 65-70. However, Dr. Brown
could not make a definitive diagnosis to a reasonable degree of professional certainty
without further investigation of Petitioner’s condition. HPCR 69.
Diagnosing gender dysphoria is more complicated than diagnosing other medical

16 Although Dr. Kessel is “Board Certified by the American Board of Psychiatry and
Neurology” and is “familiar with forensic mental health issues in Florida and the
Florida capital sentencing statute □” she does not specialize in gender dysphoria.
17

and mental health conditions. Dr. Brown explained, “[G]ender dysphoric people are over
four times more likely to [also] have depressive disorders and nearly three times more
likely to have PTSD .... The constellation of these three diagnoses co-occurring is not
uncommon.” SPCR 117 (citation omitted). Such comorbidity meant that despite red flags
such as Petitioner’s attempts at autopenectomy,17
[m]ental health professionals struggled to accurately diagnose [Petitioner],
This makes sense now, as survey studies have consistently found that
those suffering from gender dysphoria have reported higher rates of
suicidal ideation, suicide attempts, and stress-related psychiatric
disorders. Additionally, those with independent and serious psychiatric
disorders (like major depression, bipolar disorder, borderline personality
disorder, and schizophrenia) must be adequately treated for those
disorders in addition to, and independently of, gender dysphoria.
SPCR 197. Dr. Kessel spoke to Petitioner’s “excruciating pain” and the shame she
experienced from being transgender as another complication in diagnosing Petitioner.
HPCR 62.18 Another complicating factor is that gender dysphoria is “an uncommon
diagnosis with which few otherwise experienced clinicians have any expertise.” SPCR
119. These factors meant that, in 2017, neither Dr. Brown nor Dr. Kessel were able to
offer final, complete, or definitive findings as to Petitioner’s medical situation and its
impact on her earlier waivers. To offer anything other than preliminary opinions would
have been professionally unreasonable.
F. Newly Discovered Evidence

17 See SPCR 102-03, 114, 130, 203 (detailing Petitioner’s attempts to cut off her penis).
18 See also SPCR 96 (“[T]he complexity of [her] inner emotional life and the
interconnectedness of [her] mental disorders, and [her] choice to withhold that deeply
personal, painful, and shameful reality, left the evaluators with limited information
from which to render a full and meaningful assessment”); SPCR 113 (“The depression
is never disconnected from the gender problem”).
18

After providing the preliminary opinions utilized to challenge Petitioner’s
sentence under Hurst, Drs. Kessel and Brown continued to evaluate Petitioner. They
reviewed additional records and expert reports, and communicated with Petitioner as
she grappled with this new and confusing potential diagnosis. SPCR 107-20, 146.
Having masked and compartmentalized her feelings for so long,19 Petitioner
needed time to process the expert hypothesis that she is transgender, to be educated
regarding the gender dysphoria diagnosis, and to consider the implications for her safety
that would come from accepting and publicly admitting to such a diagnosis.20 In
furtherance of this, Dr. Brown conducted a clinical interview with Petitioner in
November 2017 and inquired as to Petitioner’s pronoun preference. SPCR 111.
Petitioner requested the use of male pronouns, and “JR” as a proper name rather than
“Jeremiah”; although Petitioner inwardly desired identification as “Jenna” and with
female pronouns, Petitioner was not comfortable with this while confined in a mate
prison. SPCR 111.
Having had months to process Dr. Kessel’s preliminary hypothesis, Petitioner—
who had previously refused to see Dr. Brown—felt safe enough to speak at length to Dr.

19 SPCR 112 (describing Petitioner’s “awareness of her transgender feelings as “the
number one overwhelming thing in [her] life, nothing else compares.”) (quotations
omitted).
20 SPCR 112-13 (“In a way it’s almost worse than a death sentence to me when it
comes public here [that I am transgender]...I just wanted to die rather than continue
to live in this body in this place...I was looking forward to [execution]...I just wanted
them to [kill me] ); see also Annette Bromdal et al., Whole-Incarceration-Setting
Approaches to Supporting and Upholding the Rights and Health of Incarcerated
Transgender
People,
Int’l.
J.
Transgenderism,
(available
at
https://www.tandfonline.com/doi/pdfil0.1080/15532739.2019.1651684).
19

Brown about the shame, distress, and suicidality she felt from being transgender. SPCR
111-16. Petitioner admitted that she had not previously been able to understand her
condition,21 but now having a new lens through which to view her past feelings and
experiences, she was able to contextualize and develop insight into her past decisions
throughout the litigation process. Specifically, Petitioner understood and expressed for
the first time that when she waived her appeals in 2010, it was a suicidal act. SPCR 113;
116 ( [I] buried myself because I thought the only option [to being transgender] was
death”). Still, Petitioner struggled to fully open up about the extent of her distress and,
Dr. Brown was not yet able to definitively diagnose Petitioner with gender dysphoria.
As Petitioner continued to struggle with expressing aspects of her suspected
gender dysphoria, her legal team sought to encourage open disclosure by retaining a
female psychologist, Dr. Sara Boyd, PhD.,22 to conduct a clinical interview of Petitioner.
SPCR 122. By the time of Dr. Boyd’s 2018 interview, Petitioner had grown more
accepting of her condition and reported a desire to be identified with female pronouns,
“consistent with her self-identified gender identity.” SPCR 122. Dr. Boyd was able to
assist Petitioner in understanding how the symptoms of her gender dysphoria had
infused several aspects of her life leading up to—and throughout—her capital litigation.
SPCR 133-45, 142-43. Dr. Boyd warned, however, that Petitioner “remain[ed] in need of
trauma-informed treatment and gender-related services and [was] continuing to

21 See, e.g., SPCR 112 (“I was ignorant”); SPCR 116 (Petitioner “never knew there was
a solution[.]”) (quotations omitted).
22 Dr. Boyd’s specialization as a trauma-informed forensic psychologist differs from
that of Dr. Kessel, who is a medical doctor.
20

experience related psychological distress.” SPCR 143.
As Petitioner continued to develop insight, she became more able to work with
her legal team, including the evaluating experts. By October 2018, Dr. Brown had
enough information to conclude his evaluation of Petitioner. SPCR 107. From his
preliminary to final reports, Dr. Brown’s professional opinions shifted. He was able to
definitively diagnose Petitioner, to a reasonable degree of medical certainty, with gender
dysphoria and posttraumatic stress disorder. He also retracted his prior opinion that
Petitioner suffers from major depressive disorder, instead opining that “the depression
[Petitioner] experiences is part of [gender dysphoria] and . . . would likely respond to
treatments for [gender dysphoria] and not to treatments for depression.” SPCR 118. Dr.
Brown added the diagnosis of “[h]istory of psychosis, possibly bipolar disorder” and
changed from suspecting personality disorder not otherwise specified to diagnosing
Petitioner with antisocial personality disorder. SPCR 117.
Lastly, in November 2018, Dr. Kessel concluded her evaluation of Petitioner.
SPCR 145. In her final report, she confirmed her prior hypothesis of a gender dysphoria
diagnosis and, in accordance with Petitioner’s preference, utilized female pronouns and
the name “Jenna,” as compared to using male pronouns and the name “Jeremiah,” as
she had in her preliminary report. Compare SPCR 145 with SPCR 90.
In December 2018, based on the full assessments and conclusions rendered by
Drs. Brown and Kessel, as well as other expert opinions and lay witness accounts,
Petitioner filed a postconviction motion centered on newly discovered evidence of gender
dysphoria and how the its impact, combined with Petitioner’s other mental health

21

vulnerabilities and traumatic life history, rendered Petitioner’s legal waivers invalid and
death sentence unconstitutional. SPCR 35. In that motion and its exhibits, Petitioner
presented substantial lay and expert evidence that she was not competent at each point
in her legal proceedings when she waived her rights:
•

“As a result of. .. the presence of Gender Dysphoria, a lifelong condition,
the absence of any competency and/or mental health evaluation that
considered the impact of [Petitioner’s] Gender Dysphoria on [her]
emotional development, mental state, and decision making at the time of
[her] ‘waiver,’ and given the new understanding of and diagnostic criteria
for Gender Dysphoria, there is substantial doubt as to whether [her]
waiver[s] [were]... knowing and voluntaiy.” SPCR 96-97.

•

Given that this serious medical diagnosis [of gender dysphoria] was not
considered in the assessment of [Petitioner’s competence in the past, it is
highly likely that [Petitioner] was not competent to make knowing and
informed decisions ... [of] waiver in the capital case.” SPCR 119.

•

“Ms. Rodgers’s combination of trauma symptoms (including suicidahty)
and psychosocial immaturity likely affected her ability to reason m a
reality-based, consequence-aware way about her legal options when she
was working with her legal team in the years following the crime. ... I
would have doubts about her ability to have assisted her defense at that
time.” SPCR 142 (footnote omitted).

•

Gender dysphoria “greatly affected Jenna’s mental state, her emotional
development and decision-making at that juncture” of her 2004, 2007, and
2010 waivers. SPCR 146.

•

“I have substantial doubts as to Ms. Rodgers’s competency both at the 2004
guilty plea, the 2007 jury/mitigation waiver, and the subsequent waiver of
her postconviction rights in 2010-2011. As a psychiatrist, I question
whether Ms. Rodgers was competent to waive her rights . . ..” SPCR 198.

•

“It is my professional opinion that the interplay of Ms. Rodgers’s medical
condition of gender dysphoria, along with her multiple diagnoses, mental
illnesses, and trauma, have affected her competency on several occasions.
I have substantial doubts as to her competency during her 2004 guilty plea
to attempted murder, her 2007 waiver of her jury and mitigation, and
2010-2011 waiver of her state postconviction proceedings.” SPCR 164.

22

•

“Here, where Ms. Rodgers suffers from mental illnesses, including chronic
depression and PTSD, her decisions, including the waiver of her rights ...
, are put into perspective with the diagnosis of gender dysphoria. As Ms.
Rodgers has had to suppress her female identity throughout most of her
life, her self-loathing and depression have manifested in harmful ways,
including physical self-injury, suicidal ideation, and waiver of rights in
various courts.... I have a strong doubt as to Ms. Rodgers’s competency at
each of her... waivers.” SPCR 172.

•

“During my work on Ms. Rodgers’s case, I had questions about Ms.
Rodgers’s capacity to make rational decisions. Based on my contact with
Ms. Rodgers and my knowledge of her life history, I continue to question
her capacity to make rational decisions. My concerns are based on her
mental health problems, trauma history, and recurring self-destructive
behavior and now her gender dysphoria. At times of high stress especially,
Ms. Rodgers’s abilities to protect herself seem to lessen.” SPCR 155
(expressing “considerable doubts” as to her “ability to make rational
decisions” at the times she waived her rights).

•

“I believe that the accumulation of Jenna’s trauma history, mental illness,
and gender dysphoria raise substantial doubts as to whether Jenna’s
decisions [to waive] . . . were knowing, voluntary, or intelligent ... I am
concerned that, when Jenna sought to waive her rights, her actions were
grounded on her irrational suicidal mindset and lack of capacity to help
herself. I am very concerned that her actions were not rational or
competent.” SPCR 205-07.

•

“Put together, Jenna’s trauma history, mental illness, and gender
dysphoria, and the manifestations of them I observed such as her diffidence
and lack of self-regard, cause me to have substantial doubts as to whether
Jenna’s decisions to waive . . . were knowing, voluntary, and intelligent.”
SPCR 179.

•

“I was concerned throughout my representation of Jenna that she was not
legally competent to proceed with the trial or assist me in the preparation
of her defense. ... It is certainly believable to me that the pain Jenna
suffered from her gender dysphoria was a considerable factor in her selfharming decisions and actions.” SPCR 187-89.
The evidence proffered in Petitioner’s postconviction motion demonstrates that

Petitioner’s newly discovered medical condition impacted this case at each stage of
litigation, and serves to invalidate her waivers. Petitioner’s guilty plea, sentencing jury
23

waiver,

and postconviction

waiver

were

involuntarily,

unintelligently,

and

incompetently rendered as a result of the impact of Petitioner’s gender dysphoria in
conjunction with her other mental health conditions. SPCR 39, 47, 52, 60, 67, 69, 75,
81.23
The circuit court summarily denied relief, stating that the waiver was “valid” and
still “stand[s]” and the challenges to the waiver were “not timely filed.” SPCR 413. The
Florida Supreme Court affirmed on these grounds. Those courts failed to address
' Petitioner’s arguments that the challenges to Petitioner’s waivers could not have been
previously raised, as the newly discovered condition underlying the challenges was not
a recognized diagnosis until 2013, Petitioner was not represented by counsel and had no
access to experts from 2013 until 2016, and gender dysphoria is a uniquely complicated
diagnosis that—despite diligence on the part of Petitioner and her legal team—could not
be definitively attributed to Petitioner until late 2018. Those courts failed to address
Petitioner’s evidence that the presence and impact of gender dysphoria in addition to
Petitioner’s pre-existing mental health diagnoses was not simply a redundancy, but an
exacerbating condition that worked in conjunction with the previously known conditions
to render Petitioner incompetent to waive her rights. And, the Florida Supreme Court
seeks to further deprive Petitioner of her ability to vindicate constitutional rights by
barring Petitioner from being heard in the state courts.
REASONS FOR GRANTING THE WRIT
23 Petitioner also challenged the state courts’ prior denial of Hurst relief on the basis
that, when the state courts denied Hurst relief based on Petitioner’s prior waiver, the
courts were not fully aware of Petitioner’s gender dysphoria which, when combined
with her other mental health vulnerabilities, invalidated the prior waiver.
24

This Court has jurisdiction to hear Ms. Rodgers’ case, because it presents an
important question of federal law and the state court’s grounds for denying Ms. Rodgers’
claim were not “adequate” to support the judgment and “independent” of federal law. See
Michigan v. Long, 463 U.S. 1032 (1983). This case also involves a misinterpretation of
Garza v. Idaho, 139 S. Ct. 738 (2019) and requires this Court’s clarification of its recent
precedent.
I.

This Case Presents an Important Issue of Federal Law, and the State
Court’s Grounds for Denying Ms. Rodgers Access to the Courts Were
Not Adequate to Support the Judgment or Independent of Federal
Law.
A. The State Time Bar Was Incorrect.
Ms. Rodgers’ case involves important federal constitutional challenges to the

validity of her guilty plea, juiy waiver, and postconviction waiver. Ms. Rodgers filed in
state court within one year of the date upon which the basis for challenging her plea and
waivers—namely, her previously undiagnosed and untreated gender dysphoria—could
reasonably have been discovered. The state court summarily dismissed Ms. Rodgers’
claim as time-barred, asserting that Ms. Rodgers should have filed earlier because “the
record shows Rodgers knew of the gender dysphoria diagnosis at some point between a
February 26, 2016, evaluation by a psychiatrist and the filing of the January 11, 2017.
successive postconviction motion[,]” Rodgers v. State, 288 So.3d 1038, 1039 (Fla. 2019)
(rehearing denied Feb. 11, 2020). This reasoning is incorrect.

1. Gender dysphoria was not a recognized diagnosis at the time
of Ms. Rodgers’ guilty plea, sentencing, and postconviction
25

waivers.
Prior to 2013, individuals who identified with a gender different than the one
assigned to them at birth were diagnosed with gender identity disorder. This changed
with the publication of the fifth edition of the Diagnostic and Statistical Manual of
Mental Disorders (DSM-V), which eliminated the diagnosis of gender identity disorder,
and added gender dysphoria. The change was not a simple renaming of interchangeable
diagnostic criteria. Rather, it was a recognition that gender dysphoria is a wholly
different condition than gender identity disorder.
The removal of gender identity disorder from the DSM-V and identification of
gender dysphoria was a “reconceptualization” that made “important clarifications in the
criteria” for a diagnosis, in order to “better characterize the experiences” of affected
individuals.

Most importantly, gender dysphoria did not pathologize gender

nonconformity as had gender identity disorder. In other words, the DSM-V recognized
that being transgender itself is not a psychiatric condition. Instead, the psychiatric
condition is defined by clinically significant distress and functional impairment that
some transgender individuals experience as the result of their assigned gender not
aligning with their identity.
Gender dysphoria is a condition that disproportionately impacts transgender
individuals,24 but not all transgender people have gender dysphoria. By removing gender
identity disorder from the DSM-V, medical professionals hoped to destigmatize the state

24 Gender dysphoria primarily affects transgender individuals, but can also occur in
individuals who are non-binary or intersex. See https://www.nhs.uk/conditions/
gender-dysphoria/ (last accessed June 15, 2020).
26

of being transgender. At the same time, by classifying gender dysphoria as a psychiatric
condition, medical professionals recognized the suffering experienced by some
transgender individuals, including anxiety, depression, refusal to participate in sociallyexpected situations (such as school or work), self-harm, and suicidal behavior.25
Importantly, the diagnosis of gender dysphoria recognizes that the suffering is treatable
without stripping someone of their transgender identity.
The emergence of gender dysphoria as a diagnosis signaled a functional shift in
the way medical professionals—and our society in general—view transgender issues.
Under this new framework, transgender individuals are no longer seen as inherently
disordered, and treatment for gender dysphoria focuses on eliminating the distress of a
mismatch between one’s biological sex and gender identity (often by helping the
transgender person to live as their preferred gender) rather than attempting to repress
the individual’s identity and force them to live incongruently with how they feel.
Ms. Rodgers was without counsel or access to expert evaluations from the time of
her 2010 postconviction waiver, Rodgers v. State, 104 So.3d 1087 (Table) (Fla. 2012)
(affirming discharge of postconviction counsel), until the appointment of federal counsel
on November 11, 2015. Further, Ms. Rodgers was without counsel authorized to litigate
in state court until August 24, 2016. This means that for years after the emergence of
gender dysphoria as a diagnosis, Ms. Rodgers was not in a position to discover and raise
her diagnosis.

25 See http://www.mayoclinic.org/diseases-conditions/gender-dysphoria/sympto mscauses/syc-20475255?p=l (last accessed June 15, 2020).
27

2. The experts assisting Ms. Rodgers could not have rendered
their conclusions any earlier than they did.
The state court decisions overlooked Ms. Rodgers’ arguments that, for purposes
of beginning the one-year clock for a claim based on newly discovered evidence uncovered
by a mental health expert, the triggering date must be the date of the expert’s conclusion
(often designated in a finalized report), not the date of the expert’s initial evaluation. A
clinical interview alone was insufficient for a thorough and comprehensive assessment
of Ms. Rodgers’ condition; instead, the relevant medical guidelines dictate that a reliable
mental health assessment incorporates collateral information from multiple sources.26
Gender dysphoria is a unique condition that requires particular diagnostic
nuance and thoroughness. The DSM-Vs reconceptualized diagnostic criteria
“cautionfed] against a hasty diagnosis with the potential unintended consequence of
inappropriate treatment for clients[.]” It would have been professionally unreasonable
for Ms. Rodgers’ experts to render conclusions prior to when they did so, and it would
have been contrary to good faith and judicial economy for Ms. Rodgers to have filed a
newly discovered evidence claim prior to such conclusions. Ms. Rodgers filed her newly
discovered evidence claim well within one year of the date upon which her experts were
able to render a diagnosis to a reasonable degree of medical certainty. Thus, the state
time bar was inappropriate.

26 See American Academy of Psychiatry and the Law, “Practice Guidelines for the
Forensic Assessment,” at S3, S8-9 (available at http://www.aapl.org/docs/pdf/Forensic
_Assessment.pdf) (last accessed June 15, 2020).
28

Although Ms. Rodgers’ evaluating expert, Dr. Kessel, M.D., provided a January
2017 “initial report”27 suggesting that Ms. Rodgers may be suffering from gender
dysphoria, that report alone did not constitute a reasonably certain diagnosis sufficient
to raise a good-faith claim based on newly discovered evidence. For one thing, gender
dysphoria “is an uncommon diagnosis with which few otherwise experienced climViana
have any expertise.” SPCR 104-05. In this unique situation, once the initial observation
of gender dysphoria was raised, further evaluation was necessary by a clinician
specializing in gender dysphoria.28
Dr. George Brown, M.D., has specialized in clinical practice and study of
transgender health issues for over 30 years, with a particular focus on gender dysphoria.
Dr. Brown is a longtime member of the Board of Directors of the World Professional
Association for Transgender Health (WPATH) and authored several standards of care
used by medical practitioners worldwide to evaluate and treat gender dysphoria.
Additionally, Dr. Brown has extensive experience working with incarcerated individuals
with gender dysphoria and other transgender health concerns. SPCR 107-08. When he

27 SPCR 145.
28 While Dr. Kessel’s observations would have necessitated an additional evaluation
by a clinician specializing in gender dysphoria in any similarly situated case, that
need was especially pronounced here. Ms. Rodgers has previously self-reported
malingering in order to manipulate her proceedings. See, e.g., SPCR 117, 129. Due to
this prior claim of malingering by Ms. Rodgers, it was imperative that any
diagnosis—particularly one as uncommon and significant to Ms. Rodgers’ legal
proceedings as gender dysphoria—be examined carefully and confirmed by someone
with extensive expertise in the field. Had Ms. Rodgers’ attorneys not sought
additional evaluations to confirm Dr. Kessel’s initial assessment, her attorneys would
have left Ms. Rodgers vulnerable to an argument by opposing counsel that Ms.
Rodgers was malingering, or that her claim of gender dysphoria and its impact on the
voluntariness of her plea and waivers was refuted by the state court record.
29

reviewed Dr. Kessel’s initial report in early 2017, he concurred that it was likely correct,
but could not confirm the gender dysphoria diagnosis. SPCR 103-05. At that point in
time, Dr. Brown had only reviewed Ms. Rodgers’ records, and had not conducted an inperson evaluation. After conducting that evaluation and reviewing further records under
the appropriate medical standards articulated by WPATH, Dr. Brown was finally able
to render a conclusive diagnosis of gender dysphoria on October 16, 2018. SPCR 117,
119.
Additionally, rendering a reasonably certain medical diagnosis of gender
dysphoria is a much broader task than determining whether someone’s biological sex
aligns with their preferred gender. As discussed earlier, being transgender is not the
same as suffering from gender dysphoria. Not everyone who is transgender will
experience the level of distress or impaired psychological and external functioning that
is crucial to a gender dysphoria diagnosis. Thus, a diagnosis of gender dysphoria turns
not simply on whether someone is transgender, but on whether someone is suffering
from a particular form of distress or impaired functioning as a result, and rendering a
diagnosis of gender dysphoria requires excluding other psychiatric conditions as the
source of distress or impaired functioning. SPCR 133.
Ms. Rodgers has a history rife with trauma and multiple psychological
diagnoses,29 and before rendering a reasonably certain diagnosis of gender dysphoria,

29 From 1999 to 2017, Ms. Rodgers has received multiple diagnoses, including
Adjustment Disorder, Bipolar Disorder, Impulse Control Disorder, Post-Traumatic
Stress Disorder, Personality Disorder NOS, Borderline Personality Disorder,
Antisocial Personality Disorder, Major Depressive Disorder, Substance Abuse,
30

her evaluating experts needed tune to ensure that the symptoms of her gender dysphoria
were not attributable to those other conditions and experiences. This required close
attention to Ms. Rodgers’ state of mind over an extended period of time, as well as careful
research into her life history. Such assessment is further complicated by the fact that
comorbid mental health disorders, especially mood and anxiety disorders, are
significantly more prevalent in individuals with gender dysphoria than in the general
population. SPCR 117, 141, 155, 164, 172, 197.
Additionally complicating matters was the barrier to open and effective expert
communication posed by Ms. Rodgers’ incarceration throughout the process of her
evaluation. Unlike many individuals seeking diagnosis and treatment for gender
dysphoria, Ms. Rodgers was confined by the logistics of being incarcerated. She could not
simply schedule an appointment with an expert practitioner at her leisure; nor could she
communicate by phone or email the way non-incarcerated individuals seeking diagnosis
and treatment could do. And, Ms. Rodgers was further hindered by the fear of
maltreatment inherent to her incarceration in a male prison. These factors extended the
length of time necessary for Drs. Brown and Kessel to reach a definitive diagnosis.
Ms. Rodgers’ treating experts had the arduous and time-intensive task of
attempting to qualify whether Ms. Rodgers’ suicidality and self-harming behavior
resulted from her gender dysphoria (which would constitute a good-faith basis for
pleading a constitutional challenge to the validity of her plea and waivers based on newly

Anxiety, Schizophrenia, Dysthymia, Psychosis, and Paranoid Delusional Disorder.
See, e.g., SPCR 96-97, 117, 130, 133-34, 141, 145, 164, 170, 172, 194, 196-97, 203.
31

discovered evidence of her gender dysphoria), or whether her self-destructive decisions
were satisfactorily attributable to Ms. Rodgers’ other mental health conditions
previously known to the court (which would defeat a newly discovered evidence claim.)
Consistent with their professional guidelines, which required thorough and deliberate
research, data gathering, and corroboration, the conclusions of Drs. Brown and Kessel
were finalized and memorialized in October and November 2018, respectively. Ms.
Rodgers filed her newly discovered evidence claim in state court in December 2018—well
within one year of the finalized reports.
B. The State Courts’ Knowledge of Ms. Rodgers’ Co-Morbid Mental
Health Conditions at the Time of Her Guilty Plea, Jury Waiver,
and Postconviction Waiver Does Not Invalidate Her
Constitutional Challenges Based on Newly Discovered Evidence
of Her Gender Dysphoria.
As explained above, Ms. Rodgers has consistently attempted to vindicate her
constitutional rights since the appointment of federal counsel in 2015, and has been
summarily barred at every turn. In restricting Ms. Rodgers’ access to judicial review, the
state courts have relied on Ms. Rodgers’ prior waivers—despite myriad proffered lay and
expert evidence that they were the involuntary byproduct of untreated gender
dysphoria—to prevent Ms. Rodgers from fully presenting evidence of her waivers’
involuntariness. To justify this denial of access to the courts, the state courts suggest
that Ms. Rodgers’ untreated gender dysphoria is irrelevant to understanding her as an
individual, and understanding why she relinquished her constitutional rights and
sought death.
The Florida Supreme Court opined that Ms. Rodgers’ gender dysphoria cannot

32

constitute newly discovered evidence because the “symptoms that are now attributed to
gender dysphoria (e.g., severe depression, self-mutilation, reported suiddahty) were
known to the courts that accepted and affirmed the validity of Rodgers’ plea and
waivers[,]” Rodgers v. State, 288 So.3d 1038, 1040 (Fla. 2019) (quoting Rodgers IV, 242
So. 3d at 277 (Pariente, J., concurring in result)), and “[t]he medical community’s
subsequent assignment of a name to the cause of known symptoms is not newly
discovered evidence [.]” Id. This finding flies in the face of what the medical and scientific
community knows about gender dysphoria.
Gender dysphoria is not simply a superfluous name for symptoms. It is a distinct
diagnosis, promulgated because it is qualitatively different than other conditions
involving depressive and self-destructive symptoms. Ms. Rodgers’ symptoms cannot
properly be evaluated without understanding the context of her underlying gender
dysphoria. Indeed, if other conditions such as her previously diagnosed mood and
personality disorders could properly explain her symptoms, there would have been no
need to promulgate a separate diagnosis in the DSM-V to “better characterize [Ms.
Rodgers’] experiences”.
What the state court ignored is that diagnostic classifications matter, because the
underlying cause of symptoms matters. Understanding the condition responsible for
behaviors is critical, because behaviors do not occur in a vacuum, and without
understanding the impetus, an individual’s state of mind can easily be misjudged. For
instance, the external symptoms of Child Traumatic Stress are frequently the same as
the symptoms of Attention Deficit Hyperactivity Disorder. However, the treatments are

33

entirely different. If an assessment of that child’s condition proceeded without
understanding the underlying cause of the symptoms, the child could easily be
misdiagnosed and treatment would be ineffective. In Ms. Rodgers’ case, had the courts
known of her untreated gender dysphoria, they would have had an entirely different lens
through which to view her self-destructive symptoms. That lens would have included
information such as that individuals comprising a “sexual minority” are more disposed
to suicide than their non-sexual minority peers.30 The courts would have had the benefit
of knowing that even within the sexual minority subset, a disproportionate number of
transgender individuals will attempt suicide.31 The courts would have known that the
number jumps to 46% of transgender individuals attempting suicide when they come—
as Ms. Rodgers did—from families with “restrictive attitudes toward sexuality[.]”32 And,
the courts would have known that the rate of suicidal ideation in individuals with gender
dysphoria (as opposed to transgender individuals overall), the rate of suicidal ideation is
farther elevated.33 With this knowledge, the courts would have been more likely to
recognize Ms. Rodgers’ plea and waivers for what they were—a suicide attempt via legal
process. This likelihood undermines the reliability of her death sentence, and
necessitates correction by this Court.

30 See https://www.cdc.gov/violenceprevention/suicide/fastfact.html (last accessed
June 15, 2020).
31 A. Hass et. al., Suicide Attempts Among Transgender and Gender Non-Conforming
Adults: Findings of the National Transgender Discrimination Survey (available at
http://www.suicideinfo.ca/resource/siecno-20140036/) (last accessed June 15, 2020).
32 Sahika Yuksel et al., A Clinically Neglected Topic: Risk of Suicide in Transgender
Individuals, 54:28 ARCH. NEUROPSYCHOLOGY (2017).
33 Elena Garcia-Vega et al., Suicidal Ideation and Suicide Attempts in Persons with
Gender Dysphoria, Vol. 30:3 283 PSCIOTHEMA (2017).
34

Ms. Rodgers’ proffered expert reports make clear that symptoms arising from
gender dysphoria cannot be treated as interchangeable with symptoms of similar
presentation arising from other disorders. Dr. Kessel expressed “substantial doubt”34
that the waiver was valid, a conclusion largely based on the fact that the trial court—
which was aware that Ms. Rodgers had a history of self-harm and suicidality—lacked
awareness of the impact of gender dysphoria on Ms. Rodgers’ emotional development
and mental state. Drs. Kessel and Brown found that the effect of gender dysphoria was
critical and distinct from Ms. Rodgers’ other mental health conditions, including Post
Traumatic Stress Disorder and mood and personality disorders.35 Further, Dr. Kessel
was aware that several of Ms. Rodgers’ mental health symptoms (including selfmutilation and suicidality) were on record at the time of Ms. Rodgers’ plea and waivers,
but explained that gender dysphoria casts those symptoms in a new light.36 Dr. Kessel
specifically found that “the absence of any competency and/or mental health evaluation
that considered the impact of [Ms. Rodgers’] Gender Dysphoria on [Ms. Rodgers’]
emotional development, mental state, and decision making at the time of [her trial-level
and postconviction waivers]” was sufficient to undermine their validity.

34 SPCR at 97; see also SPCR 117 (describing the symptoms of gender dysphoria as
“life-permeating” and distinct from those of other psychiatric disorders).
35 SPCR at 95-96; see also SPCR at 103 (Dr. Brown examines how Ms. Rodgers’
feelings of shame, disgust, and self-loathing are closely woven with her diagnosis of
gender dysphoria).
36 SPCR at 95-96 (gender dysphoria “has been an important part of [Ms. Rodgers’]
psychological development as well as being a serious risk factor for the development
of each of [her] other disorders”); see also SPCR 134 (“Ms. Rodgers’ Gender Dysphoria
symptoms interact with her trauma-related symptoms, and are probably
inextricable”).
35

The state court’s assumption that knowledge of Ms. Rodgers’ gender dysphoria is
irrelevant to the voluntariness of her waivers because the lower courts knew she was
depressed and self-destructive misunderstands the science of gender dysphoria,
disenfranchises Ms. Rodgers’ right to an individualized sentencing,37 and shows a
fundamental crack in our criminal justice system through which transgender
individuals are vulnerable to falling. The only remedy that can protect Ms. Rodgers’
rights to due process, reliable and individualized sentencing, and equal protection within
the criminal justice system, is a remand to the lower courts for an evidentiary hearing
in accordance with Florida law,38 in which Ms. Rodgers may present evidence of how the
circumstances surrounding her untreated gender dysphoria rendered her prior waivers
involuntary.
II.

This Case Requires Clarification of This Court’s Recent Precedent in
Garza v. Idaho, 139 S. Ct. 738 (2019).
Not only did the lower courts refuse to hear Ms. Rodgers’ challenge to the validity

of her plea and waivers, they now seek to further restrain her from vindicating her
l

constitutional rights. In its opinion affirming the lower court’s summary denial of Ms.
Rodgers’ constitutional challenges, the Florida Supreme Court took the further step of
prospectively barring Ms. Rodgers from further state court proceedings. See Rodgers v.
State, 288 So.3d 1038, 1040 (Fla. 2019) (instructing that “future filings should not be

37 Lockett v. Ohio, 438 U.S. 586, 605 (1978).
38 See Gaskin v. State, 737 So. 2d 509, 516 (Fla. 1999) (“While the postconviction
defendant has the burden of pleading a sufficient factual basis for relief, an
evidentiary hearing is presumed necessary absent a conclusive demonstration that
the defendant is entitled to no relief.”).
36

made on Rodgers’ behalf in the circuit court without first seeking leave from the circuit
court and explaining how the appointment of counsel and the proposed filing are
authorized in fight of Rodgers’ valid waiver.”) That prospective bar misapplies this
Court’s decision in Garza that an appeal waiver can never be all-encompassing or
unconditional.
In Garza, this Court held that “even the broadest appeal waiver does not deprive
a defendant of all appellate claims.” Id. at 749. Addressing appeal waivers, this Court
said the term “can misleadingly suggest a monolithic end to all appellate rights” when,
in fact, “no appeal waiver serves as an absolute bar to all appellate claims.” Id. at 744.
This Court explained that appeal waivers do not prohibit every conceivable appeal.
Even individuals who sign comprehensive and wide-ranging waivers retain the
right to appeal a number of fundamental issues concerning the validity, scope, and
enforceability of their waiver.
[A]ll jurisdictions appear to treat at least some claims as unwaiveable.
Most fundamentally, courts agree that defendants retain the right to
challenge whether the waiver itself is valid and enforceable—for example,
on the grounds that it was unknowing or involuntaiy. Consequently,
while signing an appeal waiver means giving up some, many, or even most
appellate claims, some claims nevertheless remain.
Id. at 745 (footnote omitted). The same is true of Florida’s postconviction waiver
mechanism, which allows death-sentenced inmates to knowingly and voluntarily waive
their initial postconviction proceedings, but cannot serve as an absolute bar to all future
litigation, particularly with respect to issues that were unknown at the time of the initial
waiver. Id. at 744-45; see also Halbert u. Michigan, 545 U.S. 605 (2005) (holding that an
appellant cannot knowingly and intelligently waive a right that has not been recognized
37

to exist.)
The Florida Supreme Court’s directive presumes, contrary to Garza, that an
appeal waiver serves as an automatic and absolute bar to all claims. Petitioner
acknowledges that a postconviction waiver—like an appeal waiver—may constrain
litigation to a narrower set of claims than would otherwise be available and that a waiver
may present an additional hurdle to relief, but those circumstances are not tantamount
to a wholesale bar to litigation. Campusano v. United States, 442 F.3d 770, 111 (2d Cir.
2006) (explaining that, while opportunities for appellate success after an appeal waiver
may be rare, “such cases are not inconceivable” and courts cannot “cut comers” when
constitutional rights are at stake).
The Florida Supreme Court’s own caselaw indicates that postconviction
proceedings may be litigated subsequent to a waiver when there is a challenge to the
validity of that waiver, such as competency. For a Florida postconviction waiver to be
valid, it must be “knowing, intelligent, and voluntary.” Silvia v. State, 123 So. 3d 1148
(Fla. 2013); see also James v. State, 974 So. 2d 365, 368 (Fla. 2008) (explaining that a
postconviction waiver can occur “only when it can be . . . ensure [d] that a capital
defendant is making an intelligent and knowing decision”). The Court also indicated
that, where postconviction proceedings are brought subsequent to a waiver, a challenge
to the validity of the prior waiver—as not knowing, intelligent, or voluntary—changes
the calculus. On many occasions when the Florida Supreme Court has upheld waivers,
it has expressly stated that the Court was not presented with a challenge to the

38

appellant’s competency.39
In this case, Ms. Rodgers has presented the state court with a newly discovered
evidence claim that challenges her competency at the time of her postconviction waiver,
the validity of the waiver, the validity of the Durocher hearing, and the errors of defense
counsel and the circuit court regarding assessment of her competency. She has presented
new, detailed, and individualized assessments from several medical and mental health
professionals who opine that Ms. Rodgers was not competent at the time of her
postconviction waiver. Their conclusions are based on an untreated medical condition
that could not have been known to Ms. Rodgers or her counsel during prior competency
assessments or waiver proceedings, and which calls into question the validity of her
waiver as not knowing, intelligent, and voluntary. As one expert concluded:
[T]he presence of untreated Gender Dysphoria was, and is, associated with
depression, shame, self-hatred, and self-destructiveness up to and
including suicidality expressed as a ... waiver of rights to a postconviction
review of [Petitioner]^ death penalty sentence. As such, it is my opinion
that these waivers of rights . . . were not fully voluntaiy or knowing,
predominantly on the basis of the presence of severe, untreated,
undiagnosed Gender Dysphoria with associated depression.
SPCR 119.
[T]he interplay of [Petitioner]’s medical condition of gender dysphoria,
39 See, e.g., Silvia v. State, 123 So. 3d 1148 (Fla. 2013) (affirming the dismissal of
postconviction proceedings “[o]n the basis of this record” that did not include a
challenge to the appellant’s competency at the time of his postconviction waiver);
State v. Silvia, 235 So. 3d 349, 351 (Fla. 2018) (“Silvia’s original, valid postconviction
waiver, which he has never contested before this Court, precludes him from claiming
a right to relief under Hurst.”); Russ v. State, 107 So. 3d 406 (Fla. 2012) (explaining
that, in the absence of an attack on the validity of the waiver, the Court had no basis
to set it aside); Trease v. State, 41 So. 3d 119, 126 (Fla. 2010) (Florida Supreme Court
upholding the waiver as the appellant did “not contest the validity of the [competency]
hearing.”
39

along with her multiple diagnoses, . . . ha[s] affected her competency on
several occasions. I have substantial doubts as to her competency during
her ... waiver of her state post-conviction rights. SPCR 164.
SPCR 164. See also SPCR 173 (due to Ms. Rodgers’ recent diagnosis of gender dysphoria,
there is “a strong doubt” as to her competency at the time of her postconviction waiver);
SPCR 145 (at the time of Ms. Rodgers’ postconviction waiver, her gender dysphoria and
comorbid psychiatric disorders were “present and active . . . and greatly affected [her]
mental state, her emotional development, and decision-making”).
Despite being presented with myriad evidence sufficient to challenge the validity
of Ms. Rodgers’ waiver, the Florida Supreme Court views the waiver as an absolute bar
to future litigation without first obtaining permission of the state circuit court. This
defies the spirit of Garza, and functionally strips Ms. Rodgers of her ability to access the
courts. The state circuit court has consistently summarily denied relief to all of Ms.
Rodgers’ claims since the appointment of federal counsel in 2015. By forcing Ms. Rodgers
to seek permission from that court before being allowed to file any new constitutional
challenges, the Florida Supreme Court forces Ms. Rodgers to proceed in exercises of
futility that disallow her from any reasonable opportunity to present the merits of her
challenges. Put differently, Ms. Rodgers has a right to a proceeding to bring challenges
to her plea and sentences. The Florida Supreme Court’s instruction would “den[y] that
proceeding altogether”. Garza, 139 S. Ct. at 747. This case requires this Court’s
clarification of Garza to prohibit such a denial of access to the courts.
CONCLUSION
This Court should grant a writ of certiorari to review the decision below.

40

